Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




    MEDICARE COMPLIANCE
   REVIEW OF ST. ELIZABETH’S
     MEDICAL CENTER FOR
       CALENDAR YEARS
        2010 AND 2011


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Brian P. Ritchie
                                               Assistant Inspector General

                                                      December 2013
                                                      A-01-12-00528
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

St. Elizabeth’s Medical Center did not fully comply with Medicare requirements for billing
inpatient and outpatient services, resulting in net overpayments of approximately $1.2 million
over 2 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that are at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of this review was to determine whether St. Elizabeth’s Medical Center (St.
Elizabeth’s) complied with Medicare requirements for billing inpatient and outpatient services
on selected claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

St. Elizabeth’s, which is part of the Steward Health Care System, is a 252-bed acute care hospital
located in Brighton, Massachusetts. Medicare paid St. Elizabeth’s approximately $167 million
for 10,247 inpatient and 84,175 outpatient claims for services provided to beneficiaries during
CYs 2010 and 2011 based on CMS’s National Claims History data.

Our audit covered $3,160,718 in Medicare payments to St. Elizabeth’s for 282 claims that we
judgmentally selected as potentially at risk for billing errors, consisting of 206 inpatient and
76 outpatient claims.

WHAT WE FOUND

St. Elizabeth’s complied with Medicare billing requirements for 57 of the 282 inpatient and
outpatient claims we reviewed. However, St. Elizabeth’s did not fully comply with Medicare
billing requirements for the remaining 225 claims, resulting in net overpayments of $1,209,936
for CYs 2010 and 2011. Specifically, 168 inpatient claims had billing errors, resulting in net
overpayments of $1,153,960, and 57 outpatient claims had billing errors, resulting in net
overpayments of $55,976. These errors occurred primarily because St. Elizabeth’s did not have


Medicare Compliance Review of St. Elizabeth’s Medical Center (A-01-12-00528)                       i
adequate controls to prevent the incorrect billing of Medicare claims within the selected risk
areas that contained errors.

WHAT WE RECOMMEND

We recommend that St. Elizabeth’s:

    •   refund to the Medicare contractor $1,209,936, consisting of $1,153,960 in net
        overpayments for 168 incorrectly billed inpatient claims and $55,976 in net
        overpayments for 57 incorrectly billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

ST. ELIZABETH’S MEDICAL CENTER COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, St. Elizabeth’s concurred with most of our findings and
recommendations. However, St. Elizabeth’s disagreed that it incorrectly billed eight claims as
inpatient and stated that it intends to appeal the claims at issue. We maintain these claims did
not comply with Medicare billing requirements.

St. Elizabeth’s also stated that it has developed corrective action plans to address the identified
errors. We acknowledge St. Elizabeth’s efforts to implement stronger controls.




Medicare Compliance Review of St. Elizabeth’s Medical Center (A-01-12-00528)                     ii
                                                    TABLE OF CONTENTS

INTRODUCTION .........................................................................................................................1

       Why We Did This Review .....................................................................................................1

       Objective ...............................................................................................................................1

       Background ...........................................................................................................................1
           The Medicare Program ..................................................................................................1
           Hospital Inpatient Prospective Payment System ...........................................................1
           Hospital Outpatient Prospective Payment System ........................................................1
           Hospital Claims at Risk for Incorrect Billing ................................................................2
           Medicare Requirements for Hospital Claims and Payments .........................................2
           St. Elizabeth’s Medical Center ......................................................................................3

       How We Conducted This Review .........................................................................................3

FINDINGS .....................................................................................................................................3

      Billing Errors Associated With Inpatient Claims ...................................................................4
            Incorrectly Billed as Inpatient .......................................................................................4
            Incorrectly Billed as Separate Inpatient Stays ...............................................................4
            Incorrectly Billed Diagnosis-Related Group Code .......................................................4
            Manufacturer Credits for a Replaced Medical Device Not Obtained ...........................5
            Incorrect Source-of-Admission Code............................................................................5
            Incorrect Provider Number Used ..................................................................................6

       Billing Errors Associated With Outpatient Claims................................................................6
            Incorrectly Billed Charges .............................................................................................6
            Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained .........6
            Incorrectly Billed Outpatient Services Provided During an Inpatient Stay ...................7
            Incorrectly Billed Outpatient Services with Modifier -59 .............................................7
            Insufficiently Documented Services ..............................................................................7
            Incorrectly Billed Evaluation and Management Services ..............................................8
            Incorrect Healthcare Common Procedure Coding System Code ...................................8

RECOMMENDATIONS ...............................................................................................................8

ST. ELIZABETH’S MEDICAL CENTER COMMENTS AND OFFICE OF INSPECTOR
   GENERAL RESPONSE ..........................................................................................................9

APPENDIXES
   A: Audit Scope and Methodology .......................................................................................10
   B: Results of Review by Risk Area .....................................................................................12
   C: St. Elizabeth’s Medical Center Comments .....................................................................13



Medicare Compliance Review of St. Elizabeth’s Medical Center (A-01-12-00528)                                                                 iii
                                           INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that are at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether St. Elizabeth’s Medical Center (St. Elizabeth’s)
complied with Medicare requirements for billing inpatient and outpatient services on selected
claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services




Medicare Compliance Review of St. Elizabeth’s Medical Center (A-01-12-00528)                    1
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources. In addition to the basic payments, hospitals may be eligible
for an additional payment, called an outlier payment, when the hospital’s costs exceed certain
thresholds.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •    inpatient short stays,

    •    inpatient claims billed with high severity level DRG codes,

    •    inpatient same-day discharges and readmissions,

    •    inpatient claims paid greater than charges,

    •    inpatient and outpatient manufacturer credits for replaced medical devices,

    •    inpatient psychiatric facility (IPF) emergency department adjustments,

    •    outpatient claims with payments greater than $25,000,

    •    outpatient claims billed during inpatient stays,

    •    outpatient claims billed with modifier -59, and

    •    outpatient claims billed with evaluation and management (E&M) services.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (§ 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR §
424.5(a)(6)).

1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Medicare Compliance Review of St. Elizabeth’s Medical Center (A-01-12-00528)                                 2
The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No. 100-
04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for most
outpatient services (chapter 23, § 20.3).

St. Elizabeth’s Medical Center

St. Elizabeth’s, which is part of the Steward Health Care System, is a 252-bed acute care hospital
located in Brighton, Massachusetts. Medicare paid St. Elizabeth’s approximately $167 million
for 10,247 inpatient and 84,175 outpatient claims for services provided to beneficiaries during
CYs 2010 and 2011 based on CMS’s National Claims History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $3,160,718 in Medicare payments to St. Elizabeth’s for 282 claims that we
judgmentally selected as potentially at risk for billing errors. These 282 claims consisted of 206
inpatient and 76 outpatient claims with dates of service in CYs 2010 or 2011. We focused our
review on the risk areas that we had identified as a result of previous OIG reviews at other
hospitals. We evaluated compliance with selected billing requirements and subjected 14 claims
to focused medical review to determine whether the services were medically necessary. This
report focuses on selected risk areas and does not represent an overall assessment of all claims
submitted by St. Elizabeth’s for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our scope and methodology.

                                               FINDINGS

St. Elizabeth’s complied with Medicare billing requirements for 57 of the 282 inpatient and
outpatient claims we reviewed. However, St. Elizabeth’s did not fully comply with Medicare
billing requirements for the remaining 225 claims, resulting in net overpayments of $1,209,936
for CYs 2010 and 2011. Specifically, 168 inpatient claims had billing errors, resulting in net
overpayments of $1,153,960, and 57 outpatient claims had billing errors, resulting in net
overpayments of $55,976. These errors occurred primarily because St. Elizabeth’s did not have
adequate controls to prevent the incorrect billing of Medicare claims within the selected risk
areas that contained errors. For the results of our review by risk area, see Appendix B.




Medicare Compliance Review of St. Elizabeth’s Medical Center (A-01-12-00528)                   3
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

St. Elizabeth’s incorrectly billed Medicare for 168 of 206 selected inpatient claims, which
resulted in net overpayments of $1,153,960.

Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)).

For 107 of the 206 selected claims, St. Elizabeth’s incorrectly billed Medicare Part A for
beneficiary stays that should have been billed as outpatient or outpatient with observation
services. St. Elizabeth’s officials stated that the majority of these errors occurred because St.
Elizabeth’s did not have enough staff to review all patients’ stays on a consistent and timely
basis and staff had inadequate education on level of care documentation. As a result of these
errors, St. Elizabeth’s received overpayments of $970,673. 2

Incorrectly Billed as Separate Inpatient Stays

The Manual (chapter 3, § 40.2.5) states:

         When a patient is discharged/transferred from an acute care Prospective Payment
         System (PPS) hospital, and is readmitted to the same acute care PPS hospital on
         the same day for symptoms related to, or for evaluation and management of, the
         prior stay’s medical condition, hospitals shall adjust the original claim generated
         by the original stay by combining the original and subsequent stay onto a single
         claim.

For 22 of the 206 selected claims, St. Elizabeth’s billed Medicare separately for related
discharges and readmissions within the same day. St. Elizabeth’s officials stated that these errors
occurred primarily because there was no report to identify all inpatients readmitted within 24
hours; therefore, St. Elizabeth’s did not review these cases. As a result of these errors, St.
Elizabeth’s received net overpayments of $114,601.

Incorrectly Billed Diagnosis-Related Group Code

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed


2
  St. Elizabeth’s may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
administrative contractor prior to the issuance of our report.



Medicare Compliance Review of St. Elizabeth’s Medical Center (A-01-12-00528)                                        4
body member” (the Act § 1862(a)(1)(A)). In addition, the Manual states: “In order to be
processed correctly and promptly, a bill must be completed accurately” (chapter 1, § 80.3.2.2).

For 7 of the 206 selected claims, St. Elizabeth’s billed Medicare for an incorrect DRG code. St.
Elizabeth’s officials attributed this to human error. As a result of these errors, St. Elizabeth’s
received overpayments of $63,066.

Manufacturer Credit for a Replaced Medical Device Not Obtained

Federal regulations require reductions in the IPPS payments for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the device cost, or (3) the provider receives a credit equal to 50 percent or more of the
device cost (42 CFR § 412.89). Federal regulations state, “All payments to providers of services
must be based on the reasonable cost of services ….” (42 CFR § 413.9). The Manual states that
to bill correctly for a replacement device that was provided with a credit, hospitals must code
Medicare claims with a combination of condition code 49 or 50, along with value code “FD”
(chapter 3, § 100.8). The CMS Provider Reimbursement Manual (PRM) reinforces these
requirements in additional detail (Pub. No. 15-1). 3

For 1 of the 206 selected claims, St. Elizabeth’s did not obtain a credit for a replaced
medical device for which a credit was available under the terms of the manufacturer’s
warranty. St. Elizabeth’s officials stated that the error occurred because St. Elizabeth’s
did not have procedures for tracking devices and coordinating functions among various
departments (i.e., accounting and the coding department) to ensure that it submitted
claims correctly. As a result of this error, St. Elizabeth’s received an overpayment of
$5,007.

Incorrect Source-of-Admission Code

CMS adjusts the Federal per diem rate upward for the first day of a Medicare beneficiary’s IPF
stay to account for the costs associated with maintaining a qualifying emergency department (42
CFR § 412.424). The Manual states that CMS makes this additional payment regardless of
whether the beneficiary used emergency department services; however, the IPF should not
receive the additional payment if the beneficiary was discharged from the acute care section of
the same hospital (chapter 3, § 190.6.4). The Manual also states that IPFs report source-of-
admission code “D” to identify patients who have been transferred to the IPF from the same
hospital (chapter 3, § 190.6.4.1). An IPF’s proper use of this code is intended to alert the
Medicare contractor not to apply the emergency department adjustment.

3
  The PRM states: “Implicit in the intention that actual costs be paid to the extent they are reasonable is the
expectation that the provider seeks to minimize its costs and that its actual costs do not exceed what a prudent and
cost conscious buyer pays for a given item or service” (part I, § 2102.1). Section 2103 further defines prudent buyer
principles and states that Medicare providers are expected to pursue free replacements or reduced charges under
warranties. Section 2103(C)(4) provides the following example: “Provider B purchases cardiac pacemakers or their
components for use in replacing malfunctioning or obsolete equipment, without asking the supplier/manufacturer for
full or partial credits available under the terms of the warranty covering the replaced equipment. The credits or
payments that could have been obtained must be reflected as a reduction of the cost of the equipment.”



Medicare Compliance Review of St. Elizabeth’s Medical Center (A-01-12-00528)                                    5
For 30 of the 206 selected claims, St. Elizabeth’s incorrectly coded the source-of-admission for
beneficiaries who were admitted to its IPF upon discharge from its acute-care section. St.
Elizabeth’s officials stated that the errors occurred because billing staff was not fully educated to
select and enter the proper source-of-admission code. As a result of these errors, St. Elizabeth’s
received overpayments of $3,570.

Incorrect Provider Number Used

The Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2).

For 1 of the 206 selected claims, St. Elizabeth’s incorrectly billed Medicare using its acute-care
hospital number for services provided in the psychiatric unit of the same hospital. St. Elizabeth’s
officials attributed this to human error. As a result of this error, St. Elizabeth’s was underpaid
$2,957.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

St. Elizabeth’s incorrectly billed Medicare for 57 of 76 selected outpatient claims, which resulted
in net overpayments of $55,976.

Incorrectly Billed Charges

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (§ 1833(e)). In addition, the Manual states:
“In order to be processed correctly and promptly, a bill must be completed accurately” (chapter
1, § 80.3.2.2).

For 1 of the 76 selected claims, St. Elizabeth’s submitted a claim to Medicare with incorrect
charges, resulting in a higher outlier payment than was warranted. St. Elizabeth’s officials
attributed this to human error. As a result of this error, St. Elizabeth’s received an overpayment
of $23,524.

Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR
§ 419.45). For services furnished on or after January 1, 2007, CMS requires the provider to
report the modifier “FB” and reduced charges on a claim that includes a procedure code for the
insertion of a replacement device if the provider incurs no cost or receives full credit for the
replaced device. If the provider receives a replacement device without cost from the




Medicare Compliance Review of St. Elizabeth’s Medical Center (A-01-12-00528)                     6
manufacturer, the provider must report a charge of no more than $1 for the device. 4 As
described on page 5, footnote 3, of this report, the PRM, part I, chapter 21, reinforces these
requirements in additional detail.

For 2 of the 76 selected claims, St. Elizabeth’s either received full credit for a replaced device
but did not properly report the “FB” modifier or reduced charges on its claim or did not obtain a
credit for a replaced device that was available under the terms of the manufacturer’s warranty.
St. Elizabeth’s officials stated that the errors occurred because it did not have procedures for
tracking devices and coordinating functions among various departments (i.e., accounting and the
coding department) to ensure that it submitted claims correctly. As a result of these errors, St.
Elizabeth’s received overpayments of $14,565.

Incorrectly Billed Outpatient Services Provided During an Inpatient Stay

Certain items and nonphysician services furnished to inpatients are covered under Part A and
consequently are covered by the inpatient prospective payment rate (the Manual, chapter 3,
§ 10.4).

For 24 of the 76 selected claims, St. Elizabeth’s incorrectly billed Medicare Part B for outpatient
services provided during an inpatient stay that should have been included on its inpatient (Part
A) bills to Medicare. St. Elizabeth’s officials stated that the errors occurred because its billing
software was not programmed to identify all outpatient services provided during inpatient stays.
Additionally, St. Elizabeth’s attributed the overpayments to inadequate review by hospital staff
prior to billing and staff misunderstanding the billing requirements. As a result of these errors,
St. Elizabeth’s received overpayments of $9,458.

Incorrectly Billed Outpatient Services with Modifier -59

The Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). It also states: “The ‘-59’ modifier is used to indicate a
distinct procedural service …. This may represent a different session or patient encounter,
different procedure or surgery, different site or organ system, separate incision/excision, or
separate injury (or area of injury in extensive injuries)” (chapter 23, § 20.9.1.1).

For 13 of the 76 selected claims, St. Elizabeth’s incorrectly billed Medicare for HCPCS codes
with modifier -59 for the services that were already included in the payments for other services
billed on the same claim. St. Elizabeth’s officials attributed these errors primarily to an error in
its charge description master and staff misinterpretation of the billing requirements for modifier
-59. As a result of these errors, St. Elizabeth’s received overpayments of $7,582.

Insufficiently Documented Services

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (§ 1833(e)).

4
 CMS provides guidance on how a provider should report no-cost and reduced-cost devices under the OPPS (CMS
Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, § 61.3).


Medicare Compliance Review of St. Elizabeth’s Medical Center (A-01-12-00528)                           7
For 8 of the 76 selected claims, St. Elizabeth’s incorrectly billed Medicare for E&M services that
were not supported in the medical record. The incorrectly billed E&M services were primarily
associated with injections of the anemia management drug, Epogen (i.e., epoetin alfa). St.
Elizabeth’s officials stated that these errors occurred because coding staff did not always
understand the billing requirements for E&M services. As a result of these errors, St. Elizabeth’s
received overpayments of $391.

Incorrectly Billed Evaluation and Management Services

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (§ 1833(e)). The Manual states that a
Medicare contractor pays for an E&M service that is significant, separately identifiable, and
above and beyond the usual preoperative and postoperative work of the procedure (chapter 12, §
30.6.6(B)).

For 6 of the 76 selected claims, St. Elizabeth’s incorrectly billed Medicare for E&M services that
were not significant, separately identifiable, and above and beyond the usual preoperative and
postoperative work of the procedure. The incorrectly billed E&M services were primarily
associated with injections of the anemia management drug Epogen (i.e., epoetin alfa). St.
Elizabeth’s officials stated that these errors occurred because coding staff did not always
understand the billing requirements for E&M services. As a result of these errors, St. Elizabeth’s
received net overpayments of $311.

Incorrect Healthcare Common Procedure Coding System Code

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (§ 1833(e)). In addition, the Manual states:
“In order to be processed correctly and promptly, a bill must be completed accurately” (chapter
1, § 80.3.2.2).

For 3 of the 76 selected claims, St. Elizabeth’s submitted claims to Medicare with incorrect
HCPCS codes. St. Elizabeth’s attributed the HCPCS coding error to human error. As a result,
St. Elizabeth’s received net overpayments of $145.

                                       RECOMMENDATIONS

We recommend that St. Elizabeth’s:

    •   refund to the Medicare contractor $1,209,936, consisting of $1,153,960 in net
        overpayments for 168 incorrectly billed inpatient claims and $55,976 in net
        overpayments for 57 incorrectly billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.




Medicare Compliance Review of St. Elizabeth’s Medical Center (A-01-12-00528)                  8
    ST. ELIZABETH’S MEDICAL CENTER COMMENTS AND OFFICE OF
    INSPECTOR GENERAL RESPONSE

    In written comments on our draft report, St. Elizabeth’s concurred with most of our findings
    and recommendations. However, St. Elizabeth’s disagreed that it incorrectly billed eight
    claims as inpatient and stated that it intends to appeal the claims at issue. We maintain these
    claims did not comply with Medicare billing requirements.

    St. Elizabeth’s also stated that it has developed corrective action plans to address the
    identified errors. We acknowledge St. Elizabeth’s efforts to implement stronger controls. St.
    Elizabeth’s comments are included in their entirety as Appendix C.




Medicare Compliance Review of St. Elizabeth’s Medical Center (A-01-12-00528)                    9
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $3,160,718 in Medicare payments to St. Elizabeth’s for 282 claims that we
judgmentally selected as potentially at risk for billing errors. These 282 claims consisted of 206
inpatient and 76 outpatient claims with dates of service in CYs 2010 or 2011.

We focused our review on the risk areas that we had identified as a result of prior Office of
Inspector General reviews at other hospitals. We evaluated compliance with selected billing
requirements and subjected 14 claims to focused medical review to determine whether the
services were medically necessary.

We limited our review of St. Elizabeth’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by St. Elizabeth’s for Medicare reimbursement.

Our fieldwork included contacting St. Elizabeth’s in Brighton, Massachusetts, from January
through July 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted St. Elizabeth’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2010 and 2011;

    •   obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for CYs 2010 and 2011;

    •   used computer matching, data mining, and data analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 282 claims (206 inpatient and 76 outpatient) for detailed review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;




Medicare Compliance Review of St. Elizabeth’s Medical Center (A-01-12-00528)                     10
    •   reviewed the itemized bills and medical record documentation provided by St.
        Elizabeth’s to support the selected claims;

    •   requested that St. Elizabeth’s conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   reviewed St. Elizabeth’s procedures for submitting Medicare claims;

    •   used an independent medical review contractor to determine whether 14 selected claims
        met medical necessity requirements;

    •   discussed the incorrectly billed claims with St. Elizabeth’s personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with St. Elizabeth’s officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of St. Elizabeth’s Medical Center (A-01-12-00528)                      11
                        APPENDIX B: RESULTS OF REVIEW BY RISK AREA
                                                                                              Claims
                                                                                               With
                                                                            Value of          Under /   Value of
                                                          Selected          Selected           Over-    Net Over-
                    Risk Area                             Claims            Claims           payments   payments
Inpatient

Short Stays                                                  100              $947,827          93       $849,870
Claims Billed With High Severity Level
                                                              38                522,624         17         125,433
Diagnosis-Related Group Codes
Same-Day Discharges and Readmissions                          27                724,200         24         123,290

Claims Paid Greater Than Charges                              5                 203,854         3             46,790
Manufacturer Credits for Replaced Medical
                                                              6                 186,851         1              5,007
Devices
Psychiatric Facility Emergency Department
                                                              30                382,329         30             3,570
Adjustments
 Inpatient Totals                                            206            $2,967,685         168      $1,153,960


Outpatient
Claims With Payments Greater Than $25,000                     1                 $29,529         1          $23,524
Manufacturer Credits for Replaced Medical
                                                              6                 102,429         2             14,565
Devices
Claims Billed During Inpatient Stays                          24                     9,458      24             9,458

Claims Billed With Modifier -59                               20                    46,544      15             7,751
Claims Billed With Evaluation and Management
                                                              25                     5,073      15              678
Services
 Outpatient Totals                                            76              $193,033          57         $55,976



 Inpatient and Outpatient Totals                             282            $3,160,718         225      $1,209,936

     Notice: The table above illustrates the results of our review by risk area. In it, we have
     organized inpatient and outpatient claims by the risk areas we reviewed. However, we have
     organized this report’s findings by the types of billing errors we found at St. Elizabeth’s.
     Because we have organized the information differently, the information in the individual risk
     areas in this table does not match precisely with this report’s findings.



     Medicare Compliance Review of St. Elizabeth’s Medical Center (A-01-12-00528)                        12
            APPENDIX C: ST. ELIZABETH'S MEDICAL CENTER COMMENTS 



St. Elizabeth's Medical Center 

    A STEWARD FAMILY HOSPITAL




     October 29, 2013


     Mr. David Lamir
     Acting Regional Inspector General for Audit Services
     Ofiice of Audit Services, Region 1 ,
     JFK Federal Building 

     15 New Sudbmy St, Room 2425 

     Boston, MA 02203

     RE: Audit Report A-01-12-00528, Medicare Compliance Review of Steward St. Elizabeth's
     Medical Center ofBoston, Inc. for Calendar Years 2010 ;;md 2011

     Dear Mr. Larnir:

     Steward St. Elizabeth's Medical Center of Boston, Inc. ("St. Elizabeth's Medical Center" or the
     " Hospital") is in receipt of the October 9, 2013 draft teport provided by the Department of
     Health and Human Services, Office of the Inspector General ("OIG") entitled "Medicare
     Compliance Review of St. Elizabeth's Medical Center for Calendar Years 2010 and 2011" (the
     "Report"). 1

     The Hospital is committed to compliance with all applicable regulations. We understand the
     important role ofthe OIG to ensure compliance with these regulations and appreciate the
     opportunity to provide response to the draft report related to a review of our hospital.

     Corrective action plans have been developed to address the issues raised by the audit report
     fmdings, including targeting weaker areas with additional education, monitoring, coding and
     case management quality assurance, workflow redesign, updated policies and procedures, and
     new technology applications.

     The following represents a summary of identified errors by category, along with highlights of a
     corrective action pl~ already initiated by staff at St. Elizabeth's Medical Center:

     BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS
     Incorrectly Billed as Inpatient
     Ofthe 107 claims from the OIG's judgmentally selected sample, which the OIG found to be in
     error, the Hospital agrees that 99 likely do not meet the current standards of review utilized by

     1
       Many of the claims subject to the Report were filed prior to the acquisition ofthe Hospital on November 6, 2010.
     The current operator, Steward St. Elizabeth's Medical Center of Boston, Inc., is a new entity that did not assume the
     liabilities of the prior owner with respect to participation in the Medicare program or violations of law. Nothing
     herein should be deemed as a waiver of any rights of the Hospital to reject such liabilities of the prior owner.



St. Elizabeth's Medical Center
736 Cambridge Street, Boston, Massachusetts 02135 Tel: 6 17-789-3000 www.steward.org
Medicare Compliance Review ofSt. Elizabeth's Medical Center (A -01-12-005 28)                                           13
      the OIG. As indicated in the report, the Hospital is working tore-bill claims from the sample in
      which the OIG and the Hospital have agreed, under the OIG's current review methodology,
      likely should have been billed as outpatient or outpatient with observation services .

     . The Hospital has enhanced its internal controls. The Utilization Review Policy was revised and
       case management staffing levels were increased to better assess physician level of care
       determinations in a timelier manner than during the time of claim submission for this review
       period.

      The Hospital respectfully disagrees with the Medical Review Findings for the remaining S
      claims based on intense review of the cases, and plans to appeal these claims to the extent
      allowed by Medicare policy.

      Incorrectly BiDed as Separate Inpatient Stays
      The Hospital has enhanced its procedures for identifying all inpatients readmitted to the Hospital
      within 24 hours of discharge, including Care Management and Health Information Management
      department review and timely follow up by the Patient Financial Services department to address
      any necessary claim bundling. Billing software is used to generate a daily report identifying
      same day readmissions and foster improved communication among these departments. The
      Hospital has trained appropriate staff on the enhanced procedures.

      Incorrectly Billed Diagnosis-Related Group Code

      The staff members who coded the claims identified in error were provided with remedial
      education. All coding staff received education on the appropriate use of DRG 981. A process
      was put into place whereby claims assigned with DRG 981 are peer reviewed by another coder to
      ensure that the selection of this code is appropriate. Additionally, a process was established
      whereby a monthly DRG 981 usage report is run and reviewed by Health Information
      Management department leadership for potential errors and corrections.

      Manufacturer Credits for Replaced Medical Devices Not Obtained
      For the one claim found to be billed in error, the Hospital reviewed and improved its procedure
      to better identify claims impacted by medical device warranty credits. The procedure enhances
      the work flow related to manufacturer warranty coverage detel')llinations and the assignment of
      the medical device credit value codes and condition codes. While the Hospital reserves its rights
      to challenge the application of the prudent buyer principle in this context, as well as the
      argument that warranty credits not received should be treated the same as credits received but not
      reported, the Hospital seeks to resolve the claims in question.

      Incorrect Source-of-Admission Code

      The Hospital enhanced its procedures and provided its registration and coding staff with
      education to ensure a better understanding ofthe proper source of admission code assignment for
      beneficiaries who are transferred from an acute care bed and admitted to a hospital inpatient




St. Elizabeth's Medical Center
736 Cambridge Street, Brighton, Massachusetts 02135 Tel: 617-789-3000 www.steward .org
 Medicare Compliance Review ofSt. Elizabeth's Medical Center (A -01-12-005 28)                          14
     psychiatric facility bed. A custom report has also been developed and will be reviewed by
     Patient Access staff to identify possible source of admission code errors.


     Incorrect Provider Number Used

     For the one claim that was found in error, the Hospital provided remedial education to the coding
     staff.

     BaLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS
     Incorrectly Billed Charges

     Human error was determined has the reason for this one claim error. The process, which was
     manual charge entry during the period oftime under review, has since been changed, eliminating
     the manual entry of charges, thereby reducing human error and streamlining the process of
     charging for services rendered.

     Manufacturer Credit for Replaced MediCal Device Not Reported or Obtained

     For the two claims found to be in error, the Hospital reviewed and improved its procedure to
     better identify <;laims Impacted by medical device warranty credits. The procedure enhances the
     work flow related to manufacturer warranty coverage determinations and the assignment of the
     medical device credit modifiers and condition codes. While the Hospital reserves its rights to
     challenge the argument that warranty credits not received should be treated the same as credits
     received but not reported, the Hospital seeks to resolve the claims in question.

     Incorrectly Billed Outpatient Services Provided During an Inpatient Stay

      The Hospital has revised its Medicare 3 Day Payment Window Policy to reflect the current
      regulatory requirements and staff has been provided the necessary education and training.
      Additionally, billing software improvements have led to enhanced reporting that identifies
     ·accounts that require additional review and potential adjustment prior to claim submission.

     Incorrectly Billed Services With Modifier -59

      The Hospital provided education to coding staff related to the identification of services and
      procedures that are separate and distinct from others performed on the same day. Some errors
    · identified under this category were found to be related to an inaccurate charge description in
      place at the time. The charge description master (CDM) error has been corrected.

     Insufficiently Documented Services and Incorrectly Billed E & M Services
     The majority of the claim errors related to a specific department misunderstanding of a
     requirement that does not allow billing of a level 1 evaluation & management service on the
     same day as an injection or an infusion. The department's staffhas been trained and is reviewing
     each charge for accuracy while the Hospital completes the process of building an edit into the
     billing software to prevent future potential for human error.



St. Elizabeth's Medical Center
736 Cambridge Street, Brighton, Massachusetts 02135 Tel: 617-789-3000 www.steward .org
 Medicare Compliance Review ofSt. Elizabeth's Medical Center (A -01-12-005 28)                         15
      Incorrect Healthcare Common Procedure Coding System Code
      For the three claims found to be in error, the Hospital provided education to the coding staff
      involved in the incorrect assignment ofthe HCPCS codes.

      Nothing herein should be deemed an admission by the Hospital of any regulatory violation; and
      the Hospital reserves the right to appeal any and all claims denied by Medicare Administrative
      Contractors.

      St. Elizabeth's Medical Center remains committed to strengthening internal controls to promote
      ongoing compliance with Medicare billing requirements. We are confident that our corrective
      actions will address the identified errors.

      We appreciate the professionalism ofthe OIG audit team duiing the process and the learning
      opportunity for all involved in this Medicare Compliance Review.

      Please feel free to contact me if you have questions or require additional information.

      Sincerely,

      Kevin R. Hannifan
      President




St. Elizabeth's Medica! Center
736 Cambridge Street, Brighton, Massachusetts 02135 Tel: 617-789-3000 www.steward.org
 Medicare Compliance Review ofSt. Elizabeth's Medical Center (A -01-12-005 28)                         16
